      Department of Homeland Security



             Transportation Security Administration 

             Has Taken Steps To Address the Insider 

                Threat But Challenges Remain 


                           (Redacted) 





OIG-12-120                                   September 2012

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                       September 25, 2012

   MEMORANDUM FOR:              Dr. Emma Garrison-Alexander
                                Assistant Administrator for Information Technology
                                Transportation Security Administration

   FROM:                        Frank Deffer
                                Assistant Inspector General
                                Information Technology Audits

   SUBJECT:                     Transportation Security Administration Has Taken Steps
                                To Address the Insider Threat But Challenges Remain

   Attached for your action is our final report, Transportation Security Administration Has
   Taken Steps to Address the Insider Threat But Challenges Remain. We incorporated the
   formal comments from the Transportation Security Administration (TSA) in the final
   report.

   The report contains four recommendations aimed at improving TSA’s insider threat
   program. TSA concurred with two recommendations. As prescribed by Department of
   Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of
   Inspector General Report Recommendations, within 90 days of the date of this
   memorandum, please provide our office with a written response that includes your
   (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
   date for each recommendation. Also, please include responsible parties and any other
   supporting documentation necessary to inform us about the current status of the
   recommendation. Until your response is received and evaluated, the recommendations
   will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.


   Please call me with any questions at (202) 254-4100, or your staff may contact
   Richard Saunders, Director, Advanced Technology Division, at (202) 254-5440.

   Attachment




www.oig.dhs.gov                                                                      OIG-12-120
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ......................................................................................................................... 2


   Results of Audit ................................................................................................................... 4


              TSA Has Taken Steps To Address the Risk of Insider Threats ................................. 4

              Challenges Remain in Implementing a Robust Insider Threat Program................. 9

              Recommendations ................................................................................................ 13

              Management Comments and OIG Analysis .......................................................... 14


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 19

              Appendix B:           Management Comments to the Draft Report .............................. 21

              Appendix C:           TSA’s Layers of Security ................................................................ 27

              Appendix D:           OIG Assessment of Selected TSA Information Systems................ 31

              Appendix E:           Major Contributors to This Report ............................................... 33

              Appendix F:           Report Distribution ....................................................................... 34


   Abbreviations
              BDO                   Behavior Detection Officer
              CERT                  Computer Emergency Response Team
              CIO                   Chief Information Officer
              CISO                  Chief Information Security Officer
              DHS                   Department of Homeland Security
              FAMS                  Federal Air Marshall Service
              FBI                   Federal Bureau of Investigation
              FSD                   Federal Security Director
              GSS                   General Support System
              IT                    information technology
              ITTF                  Insider Threat Task Force
              JTTF                  Joint Terrorism Task Force
              MD                    management directive
              MDVA                  Multiple Disciplinary Vulnerability Assessments
              NFL                   No Fly List
              NIST                  National Institute of Standards and Technology


www.oig.dhs.gov                                                                                                                OIG-12-120
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


           OIG        Office of Inspector General
           OIT        Office of Information Technology
           OLE/FAMS   Office of Law Enforcement/Federal Air Marshall Service
           OOI        Office of Inspection
           SOC        Security Operations Center
           TSA        Transportation Security Administration
           TSO        Transportation Security Officer
           USB        universal serial bus




www.oig.dhs.gov                                                                OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Executive Summary
We reviewed the Transportation Security Administration’s (TSA’s) efforts to address insider
threat risks. Our objective was to assess the progress that TSA has made toward protecting its
information systems and data from the threat posed by trusted employees. The scope and
methodology of this audit are discussed further in appendix A.

TSA has made progress in addressing the information technology insider threat. Specifically,
TSA has established an agency wide Insider Threat Working Group and Insider Threat Section
responsible for developing an integrated strategy and program to address insider threat risk.
Further, TSA is conducting insider threat vulnerability assessments that include personnel,
physical, and information systems at selected airports and off site offices. Also, TSA is
performing checks on privileged user accounts on TSA unclassified systems. The checks include
privileged access accounts and rights granted to system administrators or to other employees
whose job duties require specific privileges over an information system or network. Additionally,
TSA has established a Security Operations Center responsible for day to day protection of
information systems and data that can detect and respond to an insider threat incident.

TSA can further develop its program by implementing insider threat policies and procedures, a
risk management plan, and an insider threat specific training and awareness program for all
employees. Also, TSA can strengthen its situational awareness security posture by centrally
monitoring all information systems and by augmenting current controls to better detect or
prevent instances of unauthorized removal or transmission of sensitive information outside of
TSA’s network boundaries.

We are making four recommendations that, if implemented, would improve TSA’s overall
management of insider threat risk. TSA concurred with two recommendations and did not
concur with two.




www.oig.dhs.gov                                 1                                      OIG-12-120
                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   TSA protects the Nation’s transportation systems to ensure freedom of movement for
   people and commerce. It is responsible for:

   •	 Screening passengers, baggage, and cargo to prevent the smuggling of explosives
      and other contraband by terrorists and other dangerous suspects;

   •	 Training, monitoring, and certifying Federal flight deck officers, armed security
      officers, commercial inspectors, and pilot license schools; and

   •	 Leading and conducting security threat assessments and credentialing initiatives for
      all national modes of transportation, including aviation, maritime, mass transit,
      highway, freight rail, and pipelines.

   TSA relies on sensitive transportation security information to meet these objectives.
   Every day TSA, airline, and airport vendors or contractors have privileged access to
   restricted areas that include TSA information systems at the Nation’s 459 federalized
   commercial airports, which could include areas where TSA information systems are
   being used.1 As of November 2011, TSA employees consisted of approximately 66,023
   Federal employees, of which 51,930 (79 percent) are Transportation Security Officers
   (TSOs) responsible for screening passengers, carry on baggage, and checked baggage to
   prevent prohibited objects from being transported on an aircraft.

   TSA defines an insider threat as one or more individuals with access or insider
   knowledge that allows them to exploit the vulnerabilities of the Nation’s transportation
   systems with the intent to cause harm. Types of insider threats could include spying,
   release of information, sabotage, corruption, impersonation, theft, smuggling, and
   terrorist attacks. Trusted insiders can be current or former TSA employees, contractors,
   or partners who have or had authorized access to TSA’s operations, systems, and data.

   Based on job function or status within the organization, trusted insiders are typically
   given unfettered or elevated access to mission critical assets, and therefore would be
   thoroughly familiar with internal policies and procedures, electronic building access
   systems used for physical security, and technical access controls such as firewalls and
   intrusion detection systems used for information security. These employees are usually
   familiar with the weaknesses of organizational policies and procedures, as well as
   physical and technical vulnerabilities in computer networks and information systems.

   1
       Federalized commercial airports operate under TSA-approved security programs.


www.oig.dhs.gov                                        2                               	   OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   This institutional knowledge poses a continual risk to TSA because in the wrong hands it
   could be used to facilitate malicious attacks and even collusion with external attackers
   against the organization. The unauthorized disclosure of transportation security
   information could have an adverse effect on the security of transportation systems,
   equipment, personnel, or passengers.

   TSA currently has multiple layers (i.e., inherent programs or processes) in place that
   help identify risks to transportation security and could be utilized to mitigate the risks
   posed by the insider threat. Appendix C lists these layers of security and briefly
   describes individual security programs.

   Since 2001, the Computer Emergency Response Team (CERT) Insider Threat Center of
   the Software Engineering Institute at Carnegie Mellon University has researched and
   gathered data about malicious insider acts, including information technology (IT)
   sabotage, fraud, theft of confidential or proprietary information, espionage, and
   potential threats to our Nation's critical infrastructures. CERT has researched
   approximately 400 insider threat cases, including fraud, sabotage, and theft of
   intellectual property, that have been prosecuted in the United States.

   CERT has collaborated with U.S. Secret Service behavioral psychologists to collect
   approximately 150 actual insider threat cases that occurred in U.S. critical infrastructure
   sectors between 1996 and 2002, and examined them from both a technical and a
   behavioral perspective. Their research helped them to develop best practices that
   provide a framework for establishing an insider threat program within an organization
   and provide defensive measures that could detect or prevent the insider threat. CERT
   recommends that organizations:

   •	 Include the insider threat in the enterprise wide risk assessments;

   •	 Conduct a security awareness campaign to ensure that the insider threat is
      understood across the organization;

   •	 Develop and clearly define policies relevant to the insider threat and enforce these
      policies consistently and fairly; and

   •	 Secure both the physical and electronic environment, including account and
      password management, separation of duties, controls for the software development
      process, change controls, remote access, and privileged user accounts such as those
      used by system administrators.




www.oig.dhs.gov                                 3                                   	    OIG-12-120
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Results of Audit
           TSA Has Taken Steps To Address the Risk of Insider Threats

           TSA has taken a number of steps toward addressing the risk of insider threats to
           its information systems and data. Specifically, TSA has established an agency
           wide Insider Threat Working Group and Insider Threat Section responsible for
           implementing a program to address insider threat risk. In addition, TSA is
           conducting insider threat vulnerability assessments and checks of privileged user
           accounts on TSA information systems. Finally, TSA has established a Security
           Operations Center (SOC) responsible for day to day protection of information
           systems and data.

           Insider Threat Working Group

           TSA has established an Insider Threat Working Group, formerly referred to as the
           Insider Threat Task Force (ITTF), to develop an integrated agency wide strategy
           that coordinates operational plans to prevent, detect, and deter the exploitation
           of trusted positions that could jeopardize the security of the Nation’s
           transportation systems.2

           In December 2008, TSA decided to examine insider threats issues, and initially
           tasked the Office of Inspection (OOI) to lead, develop, and facilitate activities for
           the agency. In early 2009, OOI established the ITTF, which consisted of agency
           personnel from the various TSA offices, including Chief Counsel, Information
           Technology, and Security Operations. Its primary goals were as follows:

           •	 To communicate the insider threat program’s objectives as they relate to
              expectations of the current TSA leadership;

           •	 To collaborate agency wide with the implementation of the insider threat
              program; and




   2
    Executive Order 13587 – Structural Reforms to Improve the Security of Classified Networks and the
   Responsible Sharing and Safeguarding of Classified Information, issued in 2011, requires agencies that
   operate or access classified computer networks to implement an insider threat detection program
   consistent with guidance and standards developed by an interagency, Government-wide insider threat
   task force. Agencies, such as TSA, will be responsible for implementing an insider threat detection and
   prevention program consistent with guidance and standards developed by the task force.


www.oig.dhs.gov                                        4                                        	     OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           •	 To provide recommendations to TSA leadership on ways to improve the
              agency’s ability to coordinate the ongoing insider threat mitigation efforts.

           In 2009, the ITTF proposed a plan to strengthen insider threat mitigation
           activities. In response to the plan, OOI introduced an Airport Community
           Engagement Strategy. The strategy included OOI piloting an insider threat
           awareness campaign and facilitating insider threat Multiple Disciplinary
           Vulnerability Assessments (MDVAs) at airports on the United States southwest
           border. The pilots were performed in July 2009. TSA plans to expand the insider
           threat awareness campaign throughout the TSA workforce.

           In January 2012, the ITTF was re established as the Insider Threat Working
           Group. The working group consists of agency personnel from various TSA
           offices, including Office of Chief Counsel, Office of Information Technology, and
           Office of Security Operations.

           Insider Threat Section

           In January 2011, the leadership of the ITTF was transferred from OOI to the
           Office of Law Enforcement/Federal Air Marshal Service (OLE/FAMS). Additionally,
           the facilitation of the MDVA and the insider threat awareness briefings were
           transferred to OLE/FAMS. In March 2011, a permanent Supervisory Air Marshal
           in Charge was assigned to manage the insider threat program.

           The Insider Threat Section, along with the working group, is responsible for:

           •	 Establishing organizational oversight and implementation of an insider threat
              program;

           •	 Defining, developing, and promoting specific insider threat policies,
              procedures, and processes to identify, prevent, and detect potential insider
              threat risks;

           •	 Developing and implementing insider threat reporting and handling
              requirements for mitigating and responding to insider threat risks, events, or
              attacks; and

           •	 Developing insider threat requirements for implementing a TSA wide insider
              threat awareness and training program.




www.oig.dhs.gov                                 5                                 	    OIG-12-120
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           The Insider Threat Section is a central location in TSA for reporting insider threat
           risks and coordinating insider threat investigations, which may involve TSA
           offices, external partners, and law enforcement officials. The section evaluates
           allegations of insider threat incidents, gathers critical information, and preserves
           evidence.

           The section may conduct law enforcement actions to evaluate an allegation of an
           insider incident, gather critical information, or preserve evidence. It coordinates
           with the Department of Homeland Security (DHS) Office of Inspector General
           (OIG), TSA Office of Inspection, the Federal Bureau of Investigation (FBI), or other
           agencies as necessary to ensure that criminal or administrative allegations are
           investigated within the appropriate jurisdiction. Insider threat issues that occur
           at airports are typically reported to the coordinating office by the TSA Assistant
           Federal Security Director for Law Enforcement.

           The section has established a toll free, 24 hour hotline number and an email
           address specifically for employees and stakeholders to report possible insider
           threat incidents. It has also developed a brochure and informational poster for
           employees regarding the Insider Threat Program. The brochure addresses such
           topics as the motives or personal factors/situations and organizational situations
           that may increase the likelihood of an insider threat, and behaviors that may
           offer clues that an employee poses as an insider threat. The informational
           poster provides basic insider threat indicators and reporting procedures. The
           brochure and poster are currently pending TSA leadership approval.

           Multiple Disciplinary Vulnerability Assessments

           The Insider Threat Section performs MDVAs designed to identify and remedy
           instances that an employee might target with the intent of causing harm from
           inside the airport environment. The multilayered approach used in the
           assessments gathers and analyzes identified vulnerabilities from programs or
           processes that include information systems within the airport security
           environment. At the end of each assessment, the team suggests
           countermeasures for improving the airport’s insider threat security posture to
           the Federal Security Director (FSD) and airport authority.3 The methodology
           used in the insider threat assessment includes:



   3
    As the highest-ranking TSA employees at federalized airports, FSDs manage Federal airport security staff
   and operations, and lead and coordinate TSA security activities.


www.oig.dhs.gov                                        6                                             OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           •	 Interviewing the FSD, FSD staff, TSOs, and TSA IT specialists assigned to the
              airport, and airport employees. The interviews are conducted to identify and
              confirm potential airport insider threat vulnerabilities.

           •	 Performing insider threat technical vulnerability assessments of TSA’s IT
              infrastructure, including networks, servers, and hosts at airports. TSA
              performs insider threat technical security assessments of the Transportation
              Security Administration Network General Support System (GSS),
              Infrastructure Core Services GSS, and End User Computing Major Application.

           •	 Performing insider threat physical security assessments of the entire airport
              to determine vulnerabilities that could be breached, including locations of
              TSA’s IT infrastructure.

           •	 Performing insider threat analysis obtained during these assessments to
              identify vulnerabilities an employee could exploit from inside the airport
              environment. These vulnerabilities could be personnel, physical, or
              information systems related.

           TSA performs these quarterly assessments in collaboration with entities
           including other TSA internal offices, the FBI, U.S. Customs and Border Protection,
           U.S. Immigration and Customs Enforcement, U.S. Citizenship and Immigration
           Services, and the Federal Emergency Management Agency. In addition, specific
           air carriers, airport police, and U.S. Attorney’s Office personnel have participated.

           Since 2009, 11 MDVAs have been performed. OOI performed eight assessments,
           including three pilots, and OLE/FAMS performed three assessments.

           Technical Insider Threat Vulnerability Assessments

           Separate from MDVAs, the Office of Information Technology (OIT) performs
           technical insider threat vulnerability assessments at selected airports. The
           assessments are part of a process to specifically address the insider threat from
           an information security perspective. Since 2011, OIT has performed these
           assessments at two airports. OIT plans to formalize the assessment process and
           regularly perform these assessments at selected airports. This assessment
           methodology includes:

           •	 Conducting interviews at the airport with TSA personnel to determine where
              potential insider threat issues exist.



www.oig.dhs.gov                                  7                                   	   OIG-12-120
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           •	 Observing and inspecting TSA’s operations at the airport, including the
              screening areas, baggage handling areas, and other TSA areas to identify
              potential insider threat risks related to information systems.

           •	 Conducting technical vulnerability assessments of TSA’s IT infrastructure at
              the airport and off site administrative offices. The assessments will include
              TSA’s technical infrastructure, servers, and hosts. If identified vulnerabilities
              require further analysis, TSA will obtain images of the computer hard drives
              and perform forensic analysis.

           •	 Communicating issues identified during the assessments with the local FSD at
              the airport to remediate.

           Compliance Checks of Information System Privileged Accounts

           Employees with privileged access to information systems have a greater
           opportunity to perform insider attacks, as their elevated user accounts may give
           them the opportunity to bypass system controls in place to mitigate the insider
           threat risk.

           OIT performs periodic checks of privileged user accounts on selected information
           systems to verify that policies for secure implementation, monitoring, and
           maintenance of access controls are properly applied.4 These checks are
           performed under the direction of the TSA Chief Information Security Officer
           (CISO), and their objective is to determine if selected technical, operational, and
           management security controls, per DHS Sensitive Systems Policy Directive 4300A,
           are implemented and operating as expected.

           As described in TSA’s Standard Operating Procedure (SOP) Privileged Access,
           privileged system account holders (e.g., system administrators) are subject to a
           formal authorization that includes approval by the TSA CISO. By performing
           these checks, TSA verifies that users who require elevated access to perform
           their current job functions have been approved.




   4
    TSA defines a privileged account as an information system account with rights that enable a user to take
   actions that may affect computing systems, network communication, or the accounts, files, data, or
   processes of other users.


www.oig.dhs.gov                                        8                                       	     OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           TSA Security Operations Center

           Research conducted by CERT has shown that logging and monitoring employees’
           behavior while they are using Government issued computer or network
           resources will provide a better opportunity to identify suspicious insider activity
           before a serious breach of security can occur. TSA’s SOC is responsible for day
           to day monitoring of computer networks and information systems and data.
           This includes real time analysis of computer system security event logs and
           computer security incident response as needed.

           The SOC collects data and alerts from the following technology assets to
           determine if insider threat activity is occurring:

           •	 Firewall Logs – Reviewing the logs could provide evidence that an insider
              changed the firewall “rules set” to permit inappropriate activities.

           •	 Antivirus Logs – Reviewing the logs could identify an insider who turns off or
              disables antivirus software, which allows the insider to install malicious files
              such as viruses, Trojans, or logic bombs.

           •	 Intrusion Detection System Logs – Reviewing the logs for network and
              system activities could identify malicious insider activities or policy violations.


           Challenges Remain in Implementing a Robust Insider Threat Program

           Although TSA has made progress toward addressing the insider threat risk on
           many levels, more remains to be done to implement a robust insider threat
           program. Specifically, TSA can further strengthen its program by implementing
           specific insider threat policies, procedures, and a risk management plan for the
           insider threat. TSA needs to implement an insider threat training and awareness
           program for the entire TSA workforce. Further, TSA should strengthen its
           situational awareness security posture by centrally monitoring all information
           systems and by augmenting current controls to detect or prevent instances of
           unauthorized removal or transmission of sensitive information outside of TSA’s
           network boundaries.

           Insider Threat Policies and Procedures

           TSA needs to further develop its program by implementing insider threat specific
           policies and procedures to provide a consistent and clear message to all


www.oig.dhs.gov                                  9                                   	    OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           employees regarding their role and responsibility for mitigating the insider threat
           risk on a consistent basis. The initial public draft of National Institute of
           Standards and Technology (NIST) 800 53 Revision 4, Security and Privacy Controls
           for Federal Information Systems and Organizations, recommends that an
           organization develop an insider threat program with clearly defined policies and
           consistent enforcement of these policies to achieve maximum effectiveness. The
           Insider Threat Section plans to develop and implement formal insider threat
           specific policies and procedures that align with existing DHS and TSA policies.

           Further, TSA needs to implement a risk management plan specifically addressing
           the insider threat risk. According to CERT, many organizations that have suffered
           a loss from an insider threat have done so, at least partially, because of
           hindrances to effective communication and risk management across departments
           and their subcomponents. A risk management plan would help ensure that all
           employees are aware of and addressing risk consistently and continually across
           the enterprise.

           Without insider threat specific policies and an insider threat based risk
           management plan, there may not be a consistent understanding of the broad
           spectrum of risks facing TSA.

           Insider Threat Specific Training and Awareness Is Needed

           TSA does not have an agency wide required training and awareness program
           that specifically addresses the insider threat. The Insider Threat Working Group
           is currently identifying insider threat training and awareness needs for all
           employees, contractors, and Government partners. Once management
           directives, policies, and standard operating procedures are implemented, TSA
           plans to create and implement the appropriate insider threat training and
           awareness activities. The training being developed will include insider threat
           indicators and processes for reporting suspicious insider threat behavior.

           Until insider threat training and awareness for the workforce is implemented,
           employees, contractors, and partners may not have the knowledge to recognize
           and help TSA respond to potential insider threats or actual attacks.

           Protection of Controlled Information

           Protecting controlled information (i.e., sensitive but unclassified or proprietary)
           is critical to mitigating the insider threat risk to organizations. CERT studied a
           variety of insider threat cases that revealed circumstances in which insiders


www.oig.dhs.gov                                 10                                       OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           carried out attacks through the unauthorized download of information to
           portable media or external storage devices. In some instances, malicious
           insiders used email or software protocols to plan their attacks or transmit
           sensitive or proprietary information to competitors or conspirators.

           TSA needs to implement additional protective measures to detect or prevent
           instances where unauthorized employees using portable media devices (e.g.,
           universal serial buses, or USBs) to copy or remove sensitive data from desktop
           and laptop computers. According to TSA officials,




                                 TSA could implement a variety of monitoring techniques to
           detect or prevent data loss, including data loss detection tools, enterprise
           configuration management tools, or host and network based intrusion detection
           systems. Without these tools, TSA increases the risk of sensitive data being lost,
           stolen, or destroyed, which could adversely affect TSA property, personnel, or
           passengers.

           Until such tools are utilized across the network enterprise, TSA could implement
           lesser protective measures to help mitigate this threat. For example, where
           there is no legitimate “business need” to have USB ports active on desktop or
           laptop computers, system administrators could disable those ports. Where
           there is no business need to maintain unlimited file attachment sizes, system
           administrators could limit the size allowed for file attachments sent via email or
           transfer protocols, making it more difficult for a malicious insider to exfiltrate
           large amounts of sensitive data outside of TSA networks without being detected.

           Central Monitoring of Information Systems

           The SOC currently monitors 60 of 77 unclassified information systems across the
           TSA enterprise. The remaining systems are monitored either by the system



www.oig.dhs.gov                                11                                        OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           administrator responsible for each system or not at all. Some of these systems
           are not connected to the TSA network or the Internet.

           In 2009, TSA made a risk based decision not to have the SOC monitor the
           remaining 17 information systems because TSA leadership considered them “non
           mission critical systems.” However, as part of required security authorization
           packages, system administrators or owners are required to reassess the Federal
           Information Processing Standards 199 security categorization at least every 3
           years or when significant changes to the system occur. TSA should reassess the
           2009 decision not to monitor these systems based on their perceived low risk
           categorization.

           TSA officials also cited prohibitive cost as a factor in the decision not to extend
           the monitoring capabilities of the SOC to include these systems. Although TSA
           has implemented a formal procedure for security breaches on these systems to
           be reported to the SOC, system administrators tasked to oversee these systems
           separately may miss an instance of a security breach, because they cannot be
           expected to review the system’s audit or configuration logs at all times.

           According to the TSA IT Security Handbook, all information systems security
           event information is required to be aggregated at a central location. The role of
           the SOC is to act as a single focal point to provide enhanced situational
           awareness on IT operational and security issues throughout the enterprise. This
           positions the SOC to identify, prioritize, and address potential insider threat risks
           in a timely manner.

           Without central monitoring of all information systems, TSA will not have the
           ability to respond to potential insider threat risks in a timely manner. OIT
           notified administrators of systems not currently monitored by the SOC that they
           must either seek an exception to remain that way or arrange to become part of
           the SOC monitoring. To date, there is no specific timeline to complete this
           effort.




www.oig.dhs.gov                                 12                                       OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator for Information Technology for
           TSA:

           Recommendation #1:

           Further develop the insider threat program to include policies, procedures, and a
           risk management plan pertinent to the insider threat.

           Recommendation #2:

           Implement an insider threat training and awareness program for the entire TSA
           workforce.

           Recommendation #3:


                                                                                direct

           system administrators to disable USB ports on desktop and laptop computers if
           there is not a legitimate business need for them to be activated.

           Recommendation #4:

           Until protective measures are implemented to detect or prevent unauthorized
           exfiltration of sensitive information outside TSA’s network, direct system
           administrators to limit the size of email file attachments if there is not a
           legitimate business need for such attachments.




www.oig.dhs.gov                               13                                     OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           We obtained written comments on a draft report from the TSA Administrator.
           We have included a copy of the comments, in its entirety, in appendix B. TSA
           concurred with recommendations #1 and #2 and did not concur with
           recommendations #3 and #4.

           TSA Comments to Recommendation #1

           TSA concurs with recommendation #1. TSA stated that it has developed a
           management directive (MD) that provides TSA policy and procedures for the
           establishment, integration, and implementation of the Insider Threat Program.
           The MD is currently in draft pending coordination with other TSA program entities.
           When approved and implemented, the MD is intended to serve as the
           foundation for the insider threat specific risk management plan that will identify
           procedures to use to manage risk throughout the life cycle of an insider threat
           related activity.

           OIG Analysis

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           TSA Comments to Recommendation #2

           TSA concurs with recommendation #2. TSA stated that is has an insider threat
           awareness program, as evidenced by a March 8, 2012, broadcast message
           entitled TSA's Insider Threat Program. The broadcast message defines an insider
           threat and announced the Insider Threat Program’s newly established toll free,
           24 hour hotline number, and email address to report possible insider threat
           incidents.

           TSA intends to disseminate and place insider threat posters and tri fold
           brochures throughout TSA Headquarters and field locations. After the
           finalization and implementation of the Insider Threat Program MD, TSA will
           develop insider threat specific training that will likely be delivered to the agency
           workforce through TSA’s Online Learning Center.

           The insider threat assessments performed by TSA have recently been enhanced
           to include insider threat training to FAMS Field Office personnel and individuals


www.oig.dhs.gov                                 14                                       OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           that participate in the assessments at the selected airports. The training will
           include an overview of the Insider Threat Section’s roles and responsibilities, as
           well as the roles and responsibilities of those participating in or supporting the
           assessments.

           OIG Analysis

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           TSA Comments to Recommendation #3

           TSA did not concur with recommendation #3. TSA stated that it uses USB ports
           for operational purposes and it would not be feasible to implement the
           recommendation.



           TSA includes insider threat in its risk based approach to vulnerabilities and views
           insider threat in every aspect of the TSA mission, including the implementation
           of protective measures such as physical security, technical controls, and training
           and awareness. TSA is in the process of creating an Insider Threat Program. TSA
           OIT has Security Operating Centers that monitor both classified and unclassified
           systems.

           TSA utilizes a gateway application through DHS Trusted Internet Connections and
           Policy Enforcement Points, which provide alerts when data is transferred outside
           of the DHS network. TSA continuously works with DHS to fine tune the
           application for improved notification services within the TSA network. TSA plans
           to implement policy, procedures, and training to increase awareness, compliance,
           and accountability among all TSA employees and contractor staff.

           OIG Analysis

           We consider this recommendation unresolved and will require additional
           discussion between our offices before disposition. We do not agree with TSA’s
           statement that it uses USB ports for operational purposes and that it would not
           be feasible to implement the recommendation.

           We recognize that TSA has established an agency wide Insider Threat Working
           Group, Insider Threat Section, and implemented security monitoring at Security


www.oig.dhs.gov                                15                                       OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Operating Centers for 60 unclassified systems. However, TSA has not yet

           implemented
                                                                       Although DHS is
           working toward adoption of                           TSA has not implemented
           centralized and aggregated monitoring of all 77 unclassified TSA information
           systems across the enterprise, as required by the TSA IT Security Handbook. As
           discussed with TSA, this recommendation was meant to serve as a lesser and
           interim protective measure





                                                      This recommendation can be
           implemented using inexpensive

           TSA should reconsider its response to this recommendation and take the
           necessary steps to address this potential insider threat risk.

           TSA Comments to Recommendation #4

           TSA did not concur with recommendation #4. TSA stated that its physical and
           automated security controls prevent inadvertent access to sensitive data and
           that it uses role based scenarios and periodic review of all security controls prior
           to receiving an approval to operate systems where sensitive data is housed.

           According to TSA, NIST 800 45, Guidelines on Electronic Mail Security,
           recommends that organizations should consider restricting the maximum
           applicable size for email attachments. Additionally, DHS MD 4500.1, DHS E Mail
           Usage, gives the Chief Information Officer (CIO) the responsibility for
           establishing individual mail message size (including attachments) and total
           mailbox size limits. Accordingly, TSA currently limits the size of email
           attachments to 20 megabytes for all employees.

           TSA stated that email size limitations would not inhibit the ability of insiders to
           copy or disseminate sensitive information. TSA recognizes that sensitive
           information can be copied or disseminated through various methods, including
           sending multiple email attachments, sending emails with embedded sensitive



www.oig.dhs.gov                                 16                                       OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           information, printing sensitive information, or copying sensitive information by
           hand.

           The TSA strategy for addressing insider threat is a risk based approach that
           includes the following: an Insider Threat Program, Insider Threat Assessment,
           Cyber Security Awareness and Outreach Program, Technical Insider Threat
           Vulnerability Assessment, and compliance checks of information systems
           privileged accounts.

           OIG Analysis

           We consider this recommendation unresolved and will require additional
           discussion between our offices before disposition. We do not consider TSA’s
           comments responsive to the recommendation that email file attachment size
           should be limited if there is not a legitimate business need for such attachments.

           We recognize that TSA has established an Insider Threat Program, conducts
           insider threat vulnerability assessments, and performs compliance checks of
           information systems privileged accounts.



                                                                               As
           discussed with TSA, this recommendation was meant to serve as a lesser and
           interim protective measure until TSA has implemented the appropriate
           protective measures.

           DHS MD 4500.1, DHS E Mail Usage, gives email system administrators the
           responsibility for implementing and maintaining appropriate security features
           and controls. Although DHS users are responsible for adhering to the CIO’s
           guidelines on email message size, only administrators at the direct system level
           have both the control and responsibility to address the security risk posed by
           exfiltration of sensitive information. Furthermore, administrators can impose
           email size limitations based on the specific and unique needs of user roles and
           accounts. For example, 79 percent of TSA’s workforce are TSOs, who have a
           minimal need to attach sensitive information to email files on a daily basis.

           Implementing different, but appropriate security schemes and settings to the
           email accounts based on business needs, is a crucial step for TSA to limit its
           exposure to potential insider threat risks. TSA should reconsider its response to



www.oig.dhs.gov                                17                                     OIG-12-120
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           this recommendation and take the necessary steps to address this potential
           insider threat risk.




www.oig.dhs.gov                              18                                     OIG-12-120
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107 296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to assess the progress that TSA has made toward
   protecting its information systems and data from the threat posed by trusted employees.

   During the audit, we assessed TSA’s:

   •   Insider threat management process;
   •   Ability of selected employees to monitor and report suspicious employee behavior;
   •   Insider threat security policies;
   •   Insider threat security training and awareness; and
   •   Four unclassified information systems critical to the mission of TSA.

   Appendix D provides information on the systems selected for the assessment, relevant
   security controls selected, and the assessment results.

   Fieldwork was conducted at:

   •   TSA Headquarters, Arlington, Virginia;
   •   Denver International Airport, Denver, Colorado;
   •   Colorado Springs Airport, Colorado Springs, Colorado;
   •   Washington Dulles International Airport, Sterling, Virginia;
   •   Charlotte Douglas International Airport, Charlotte, North Carolina;
   •   Raleigh Durham International Airport, Morrisville, North Carolina;
   •   Ronald Reagan Washington National Airport, Arlington, Virginia;
   •   Colorado Springs Operations Center;
   •   Annapolis Junction Operations Center;
   •   TSA Security Operations Center, Ashburn, Virginia;
   •   TSA Freedom Center, Herndon, Virginia;
   •   Federal Air Marshal Service Facility, Egg Harbor Township, New Jersey; and
   •   DHS Data Center, Clarksville, Virginia.




www.oig.dhs.gov                               19                                     OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Fieldwork was performed through conference calls or data calls for the San Francisco
   International Airport in San Francisco, California, and the Portland International Airport in
   Portland, Oregon.

   We conducted this performance audit between September 2011 and March 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.

   We appreciate TSA’s efforts to provide the necessary information and access to
   accomplish this audit. Major OIG contributors are identified in appendix E.




www.oig.dhs.gov                                 20                                       OIG-12-120
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report



                                                                                 'e.·.
                                                                                         u.s. Df,p."IUH' or Ito. tt.lld SKull)'
                                                                                         601 Soulh 121h SUUI
                                                                                         AJh~VA       m98

                  JUN 2 5 2012                                               ;           Transportatio n
                                                                                         Security
                                                                                 ..
                                                                             ~, ~ .~..   Administration


                                                       lNfORMATlON


              MEMORANDUM FOR,                Frank DefTer
                                             Assisllmt Inspector General
                                             Information Technology Audits

                                             John s. PiSloi.tJ...-~;J"Y
                                             Administrator v~

                                             Transportation Security Administration's (fSA) Response 10
                                             Department of Homeland Security (OI'IS) Office oflnspector
                                             General's (DIG) Draft Report Titled Transporflltion Security
                                             Administration Has Taken Steps To Address the Insider Threat But
                                             Challenges Remain. DIG Projeci No. Il ·064·JTA·TSA




              This memorandum constitutes TSA 's formal Agency response 10 the DHS O IG draft report
              Transportation SecurilY Administration Has Taken Steps To Address the Insider Threat But
              Challenges Remain. TSA appreciates the opportunity to review and provide comments to your
              draft report.

              Background

              In August 2011. OIG began a review ofTSA's efTorts to address insider threat risks. DIG's
              objecti ve was to assess the progress that TSA made toward protecting its information systems
              and data from the threat posed by trusted employees. DIG conducted its fieldwork from
              September 2011 to March 2012.

              During this review, DIG assessed TSA's insider threat management process: abil ity of selected
              employees to monitor and report suspicious cmployee behavior: insider threat security policies:
              insider threat security training and awareness; and fou r unclassified infonnation systems critical
              to the mission ofTSA.




www.oig.dhs.gov                                                   21                                                              OIG-12-120
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                                                                                                                       2




                  Discussion

                  As noted in the draft repon. OIG's objective was 10 "assess the progress that TSA has made
                  toward protecting its information systems and data from the threat posed by trusted em ployees."
                  DHS DIG noted that TSA has made progress in addressing the in formatio n technology insider
                  threat. Spec ifically, the report states that ''TSA established an agency-wide Insider Threat
                  Worki ng Group and Coordi nating Office responsible for developing an integrated st rategy and
                  program 10 address insider threat risk." TSA appreciates OIO's recogni tion ofTSA's efforts to
                  address insider threat risks by conducting insider threat vul nerability assessments that incl ude
                  personnel, physical. and information systems a l selected airports and oIT-si te offices; performing
                  checks on privileged user accounts on TSA unclassified systems (which include pri vileged
                  access accounts and ri ghts grantcd to system admi ni strators or to other employees whose job
                  duties require specific privileges over an infonnation system or network); and establishing a
                  Security Operati ons Center responsible for the d ay~t o-day protection of information systems and
                  data that can detect and respond to an insider threat incident.

                  There are several items contained in the report TSA would like to clarify. In reference to the
                  definition of insider threat, TSA seeks to clarify that it defines an insider threat as "One or more
                  individuals with acceSs a nd/or insider knowledge that allows them to exploit the vulnerabilities
                  of the ation's transportation systems with the intent to cause hann. This includes di rect risks
                  associated with TSA 's security programs, operations, and indirect risks that may com promise our
                  critical infrastructure." T he referenced definition was disseminated to the entire TSA workforce
                  through a TSA broadcast message on March 8, 2012, as part ofTSA's Insider Threat Program
                  awareness campaign.

                  With respect to steps TSA has taken to address the risk of insider threats, specifically as it
                  concerns the Insider Threat Working Group (ITWG) and the Insider lltreat Section, TSA seeks
                  to clarify, for historica l accuracy, the evol ution of these enti lies and associated nome nclatures.
                  In December 2008, TSA's Office of Inspection (001) was tasked by TSA leadership to lead
                  and/or coordinate the Agency's insider threat initiatives, to eventually incl ude the Insider Threat
                  Task Force (ITTF), which was re -established in January 2012 as the Insider Threat Working
                  Group (ITWG). Similar to the ITTF, the ITWG consists of Agency personnel from various TSA
                  offices, including the Office of Chief Counsel, Office of Information Technology, and Office of
                  Security Operations.

                  In response to thc ITfF' s proposed plan to strengthen insider threat mitigation activities, in 2009,
                  001 introduced an Airport Community Engagement Strategy (ACES). The strategy incl uded
                  001 piloting an insider threat awareness campaign and faci litating insider threat Multiple
                  Disciplinary Vulnerability Assessments (MDV As) at airpo rts on the United States southwest
                  border.

                  One of the ITTF's recommendations to TSA leadership was to establish an insider threat
                  coordi nation office that would be responsible fo r coordinating TSA's insider threat program
                  efforts. In January 2011, in response to this recommendation, TSA established the Insider lOreat




www.oig.dhs.gov                                                   22                                                       OIG-12-120
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


                                                                                                                         3




                  Section w ithin TSA's Office of Law EnforcementIFederal Air Marshal Service (OLEIFAMS).
                  The Insider Threat Section is responsible for the lTWG (fannerly the ITTF), as well as
                  facilitation of the MDVA and insider threat awareness briefings.

                  The purpose for and primary goals Oflhc ITWG are consistent with those of the IlTF; however.
                  the Insider Threat Section, along with the working group, is also responsible for the fo llowing:

                            Establishing organizational oversight of an insider threat program;

                            Defining, developing, and promoting specific insider threat policies, procedures, and
                          processes to identify. prevent, and detect potential insider threat risks;

                          • Developing and implementing insider threat reporting and handling requirements for
                          mitigating and responding to insider threat risks, events, or attacks; and

                          • Developing insider threat requirements for implementing a TSA-wide insider threat
                          awarcness and training program.

                  The Insider Threat Section'S coordination with other DHS or TSA offices, and/or other agencies,
                  is not strictly limited to the investigation of criminal allegations. Coordination may also occur
                  pursuant to an investigation of administrative allegations. Addi tionally, under the current model,
                  the Insider Threat Section oversees the follOwing three functional areas or program sections:

                            Insider Threat Assessments (ITAs)

                            Training and Awareness

                            Operations: Referrals and Mitigation.

                  With respect to the number of MDVAs perfonned by TSA, since 2009 it has conducted II, as
                  opposed to five as indicated in the report. 001 facilitated eight MDV As, including three pilots;
                  and to date, OLEIFAMS has facilitated three MDVAs,

                  Statements within the report portray an absence of any insider threat education, training, and
                  awareness at TSA. A lthough TSA does not have an Agency-wide required training and
                  awareness program that specifically addresses insider threat, it has mandatory Online Learning
                  Center courses that include aspects of awareness and recognition of insider threat activities, e.g.,
                  TSA Security Orientation, Classified National Security Information (CNSI) jor TSA Employees
                  and Contractors, Fundamentals ojCNSl, Operations Security Fundamentals (OPSEC), IT
                  SecllriryAwareness, and TSA Management Directive (MD) 2800.5: Internal Security Reporting:
                  Foreign Conlacl and Travel. Over the years, awareness programs have been deployed within
                  TSA that address being alert to external influences and co-worker criminal and intelligence
                  involvement, programs that have included poster campaigns at Headquarters and field offices.
                  broadcast messages, and OPSEC or Sensitive Security Infonnation survey visits at major airport




www.oig.dhs.gov                                                  23                                                          OIG-12-120
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


                                                                                                                          4




                  offices. While TSA agrees that such efforts are shared among the mult iple TSA program offices,
                  and not presently issued under one consolidated program, they are representative of the
                  supporting efforts by program offices within TSA to raise awareness of insider threat.

                  Overall, your recommendations will help us continue improving and implementing a morc robust
                  insider threat program. TSA has already made significant progress in implementing a more
                  robust insider threat program, as evidenced by the fact that when audit fie ldwork began, the
                  Insider Threat Section was only staffed with the Supervisory Air Marshal in Charge. At present,
                  the Insider Threat Section current ly consists of to full-time employees. Additional ly. a program
                  specific TSA Management Direct ive (MO) and Concept of Operations (CONOPS), as well as an
                  infonnational poster and tri-fold brochure, have been developed and arc currently pending
                  leadership approval. Further, a loll-free, 24-hour hOlline number and e-mail address have been
                  established specifically for use by employees and stakeholders to report possible insider threat
                  incidents, reporting methodologies recently disseminated, along wilh a defin ition of an insider
                  threat, to the TSA workforce on March 8,2012. TSA recognizes the threat posed by the
                  unauthori7.ed removal. copying. or dissemination of sensitive infonnation and has implemented a
                  spectrum of protective measures to address these ri sks, including physical security, technical
                  controls, and employee training.

                  What follows arc TSA's specific responses to the recommendations contained in OIG's report.

                  Recommendalion I : Further d evelop Ihe insider thrcal program 10 include policies,
                  procedures, and a risk management plan pertinent to the insider threat.

                  TSA Co ncurs: TSA has devcloped a MD that provides TSA policy and procedures for the
                  establ ishment, integration, and implementation of the Insider Threat Program. The MD is
                  currently in draft pending coordination with other TSA program entities. Several or the
                  procedures accompanying the MD are derived from a CONOrS, which is also currently in draft
                  pending leadership approval .

                  The implementation of the referenced documents is intended to serve as the foundation for the
                  Insider Threal Program's multi-faceted, insi der threat specific risk management plan, which will
                  identify procedures to be used 10 manage risk throughout the life-cycle of an insider threat
                  related activity. Additionally, it will idenlify procedures for performing ri sk identi fi cation and
                  quantification, planning risk response, implementing contingency plans, a llocating reserves and
                  documenting results.

                   Recommend ation 2: Implement an insider threat training and awareness program for the
                  entire TSA workforce.

                  TSA Concurs: TSA has an insider threat awareness program evidenced by a March 8,2012
                  broadcast message entitled. TSA 's insider Threat Program, that defined an insider threat and
                  announced the Insider Thrcat Program's newly established loll-free, 24-hour hot line number and
                  e-mail address to report possible insider threat incidents. Pending are posters and tri-fold




www.oig.dhs.gov                                                  24                                                           OIG-12-120
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                                                                                                                    5




                  brochures intended fo r dissemination to and placement throughout TSA Headquarters and field
                  locations. TSA will develop insider threat specific training upon finalization and implementation
                  of the insider Threat Program MD. Delivery aCthe training 10 the Agency workforce will likely
                  be through TSA 's Onli ne Learning Center. IT As have recently been enhanced to include insider
                  threst training to FAMS Field Office personnel, individuals that will partic.ipate in the ITA
                  aclivities al the ITA selected airports. The training involves an overview of the Insider Threat
                  Section'S roles and responsibilities. BS welles (oles and responsibilities of those participating in
                  and/or supporting the assessment. These methodologies for raising awareness, coupled with the
                  Insider Threat MD and accompanying procedures, will equip the workforce with the ability to
                  recognize and to appropriately respond to a potential or actual insider threat attack.




                  TSA No n-Concu rs: TSA uses USB pons for operational purposes. Therefore, implementation
                  of the recommendation is not feasible. TSA intends to implement peripheral device mitigating
                  solut ions through software in future security solution upgrades. TSA include3 insider threat in
                  irs risk-based approach 10 vulnerab ilities. TSA views insider threat in every aspect of the TSA
                  mission 10 include the implementation of protective meqsures ranging from physical security,
                  teciul ical conlrols, training and awa reness, and the stand up of an Insider Threat Program.
                  Moreover, TSA OrT has specific Security Operating Centers (SOCs) that monitor both classified
                  and unclassified systems. TSA utilizes a gateway application through DHS TIC and PEP, which
                  provide alerts when data is transferred outside of the DHS network. TSA continuously works
                  with DHS to fine -tune the application for imprOVed notification services within the TSA
                  network. TSA plans to implement policy, procedures. and training to increase awareness,
                  compliance and accountability among all TSA employees and contractor staff.

                  Recomm en dAtion 4: Until protective meuures I re implement ed io del ed or prevenl
                  unauthorized ex fill ralion or lCnsitlvc illrormation outside TSA'~ networ k, di rec t system
                  adm inistrato" Jll ould li mit tbe site 0( email file attach ments ir there is not a legitimatc
                  business need ror such attachm ents.

                  TSA Non·Concurs: TSA physical and automated security colmols prevent inadvertent access to
                  sensitive datil and uses role based scenarios and periodic review of all security controls prior to
                  receiving an approvllito operate those systems where sensitive data is housed. NIST 800.45
                  recommends that organizations should consider restricting the maximum applicable size for
                  e-mailallactunents. Additionally. DHS MD 4500.1 gives the Chieflnfonnation Officer (CIO)
                  the responsibility for establishing individual majl message siu (including aUGc-runents) and total
                  mailbox size limits. Accordingly, TSA currently limits the size of e-mail an.achmcnts to 20MG
                  for all employees. However, imposing e.-mail size limitations will not inhibit the ability of
                  "insiders" to copy or disseminate sensitive information. TSA recognizes thai sensitive
                  infonnation can be copied or dissemim'lled through various methods, incl uding, but not limited




www.oig.dhs.gov                                                  25                                                      OIG-12-120
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                                                                                                                        6




                  to: sending multiple e-ma il attachments, sending e-mails with embedded sensitive information,
                  printing sensitive information, or copying sensitive information by hand. The TSA strategy for
                  addressi ng insider threat is a risk- based approach that includes the following: an Insider lbreat
                  Program, Insider Threat Assessment, Cyber Security Awareness and Outreach Program,
                  Technical Insider Threat Vulnerability Assessment, and compliance checks of information
                  systems privileged accounts.




www.oig.dhs.gov                                                 26                                                          OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   TSA’s Layers of Security
   TSA has multiple layers of aviation security that could mitigate the risk of insider threat
   through individual TSA security programs. These layers of security are designed to deter
   individuals attempting to carry out terrorist attacks. Figure 1 shows TSA’s 20 layers of
   aviation security.

   The security layers and the processes they establish could identify risks to aviation
   security, which could include the insider threat. These security layers include using
   airport checkpoints, gathering and analyzing intelligence, checking passenger manifests
   against watch lists, performing random canine searches at airports, and employing
   Federal flight deck officers and Federal air marshals. These areas are not discussed in
   the body of the report.




www.oig.dhs.gov                                27                                       OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Figure 1: TSA’s 20 Layers of Aviation Security





   Source: TSA

   According to TSA, each layer has the potential to prevent a terrorist attack; together,
   the layers create a much stronger security system. Potential terrorists would have to
   overcome multiple layers to carry out an attack and would most likely fail in their
   attempts.

   Insider threat related activities are integrated into the security layers. Listed below are
   individual TSA security programs that could help mitigate the insider threat.

   Personnel Background Investigations and Vetting

   TSA requires all employees and contractors to undergo a background investigation prior
   to employment. To gain privileged access to secure areas of federalized airports, TSA,
   airline, airport, and airport vendor employees and contractors must possess a Security
   Identification Display Area badge granted by the airport authority. Before issuing an
   identification badge, the airport authority performs a criminal history record check on
   each individual who needs access. The airport authority provides this information to


www.oig.dhs.gov                                 28                                      OIG-12-120
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   TSA, and it is vetted for known threats to transportation or national security. TSA then
   compares those results to a list of disqualifying offenses.5 If applicants have been
   convicted in the past 10 years of any of the offenses, they are prohibited from
   employment.

   Daily, TSA performs perpetual name based vetting of all TSA, airline, airport, and airport
   vendor employees and contractors. TSA compares the names against various law
   enforcement and intelligence agency databases to determine whether there is a
   potential or actual threat to transportation security. If TSA determines that an
   individual poses a security threat, the information is sent to the appropriate law
   enforcement or intelligence agencies for further analysis.

   The law enforcement or intelligence agencies determine whether the individual’s
   identity can be verified and whether the individual continues to pose a threat or is
   suspected of posing a threat, and notifies TSA. TSA informs airlines or airports when an
   individual’s access to secure areas must be denied or rescinded.

   Airport Security Playbook Program

   TSA’s Airport Security Playbook program uses security countermeasures designed to
   detect, deter, and defeat potential insider actions within the Nation’s aviation system.
   Beginning in 2008, the program was deployed at federalized airports to improve the
   overall security posture among the airports.

   The playbook includes a predefined list of plays, actions, and scenarios that the Federal
   Security Director Playbook Coordinator executes on a daily basis in coordination with
   TSA personnel, local law enforcement, and other DHS agencies at the airport. The
   program creates a dynamic security environment that increases unpredictability, which
   is designed to frustrate potential terrorist plans or activities.

   Behavior Detection Officer Program

   TSA established the Behavior Detection Officer (BDO) program to use nonintrusive
   behavior and analysis techniques to identify potentially high risk passengers and
   employees. BDOs are trained to detect individuals exhibiting behaviors that indicate
   they may be a threat to transportation security. BDOs are currently operating at
   approximately 161 airports nationwide.



   5
       See 49 USC 44936(b) and 49 CFR 1542.209(d) for lists of disqualifying offenses.


www.oig.dhs.gov                                          29                              OIG-12-120
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Joint Vulnerability Assessments by TSA and the FBI

   TSA and the FBI perform congressionally mandated, periodic joint vulnerability
   assessments of security at selected airports to assess current and potential threats to
   the domestic air transportation system. The assessments consider the extent of
   individuals’ capability and intent to carry out terrorist attacks or related actions against
   transportation systems and how those individuals might carry out those actions.

   Joint Terrorism Task Forces

   TSA participates in Joint Terrorism Task Forces (JTTFs). JTTFs provide a central location
   for local, State, and Federal agencies to share terrorism related information and
   intelligence and to investigate terrorist threats, including insider threats. TSA regularly
   participates in FBI led JTTFs throughout the United States, including the National JTTF.

   TSA’s Office of Inspection

   TSA’s Office of Inspection performs a variety of activities related to identifying and
   investigating threats, such as conducting inspections; performing covert testing;
   conducting criminal and administrative investigations of employees; and identifying and
   testing vulnerabilities in passenger, baggage, and cargo operations.




www.oig.dhs.gov                                 30                                       OIG-12-120
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix D
   OIG Assessment of Selected TSA Information Systems
   Our review of four unclassified information systems critical to the TSA mission and the
   safety of airline employees, passengers, and the general public included the following:

   •	 Crew Vetting Program – Used by TSA to conduct security threat assessments of
      airline crew members.

   •	 Mission Scheduler Notification System – Provides TSA with automated means for
      mission planning and scheduling for the FAMS.

   •	 No Fly List (NFL) HTML Database – Provides TSA, airline carriers, embassies, and
      other Federal agencies with a current list of individuals who may pose a threat to
      aviation security, airline carriers, embassies, and other Government agencies. The
      NFL is created and maintained by the FBI’s Terrorist Screening Center and provides a
      consolidated list of known or suspected terrorists.

   •	 Transportation Worker Identification System – Provides identity credentials for
      transportation workers who require unescorted access to secure areas of the
      Nation’s transportation infrastructure.

   Minimum Technical and Physical Security Controls on Information Systems Are Present

   Our review of the technical and physical controls concludes that TSA has applied the
   minimum required security controls designed to provide reasonable assurance that
   information systems audited are protected against vulnerabilities that are commonly
   exploited by attackers.6




   6
    The DHS 4300A and NIST Special Publication 800-53A, Revision 1, Guide for Assessing the Security
   Controls in Federal Information Systems and Organizations based controls reviewed included the
   following: Account Management (AC-2), Separate of Duties (AC-5), Least Privilege (AC-6), Remote Access
   (AC-17), Audit Review, Analysis, and Reporting (AU-6), Access Restrictions for Change (CM-5), Risk
   Assessment (RA-3), Physical Environment Protection Policy and Procedures (PE-1), Physical Access
   Authorizations (PE-2), Physical Access Control (PE-3), Monitoring Physical Access (PE-6), and Visitor
   Control (PE-7).


www.oig.dhs.gov                                      31                                      	    OIG-12-120
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Minimum Technical Security Controls Applied7

   •	 TSA has defined processes for creating and deleting information system user accounts.

   •	 TSA reviews and analyzes information system audit logs for indications of
      inappropriate or unusual activity and reports findings to the appropriate officials for
      further action or instruction.

   •	 Remote access to information systems is restricted to authorized personnel and
      requires strong authentication accomplished through two factor authentication to
      access the system.

   •	 Separation of duties is enforced. Users are assigned duties based on position to
      prevent one person from having full access to the system in all process activities.

   Minimum Physical Security Controls Applied8

   •	 Policies and procedures are documented in TSA’s IT Security Policy Handbook (see
      chapter 3) for implementation guidance for physical and environmental protection
      of the information system facilities. TSA policies are reviewed and updated annually
      by the TSA Infrastructure Assurance and Cyber Security Division, Information
      Assurance Policy Branch.

   •	 TSA develops and keeps a current list of authorized personnel who have access to
      the information system facilities. The lists are regularly updated as personnel are
      added and removed based on hiring, separation, and change in job duties.

   •	 Buildings and rooms housing information systems, equipment, and data are
      monitored by real time intrusion alarms and surveillance equipment to detect and
      respond to physical security incidents.

   •	 TSA requires visitors to sign in upon entering information system facilities, be
      escorted during their stay, and sign out upon leaving the facility. Visitor logs are
      maintained and available for review for 1 year.

   7
     According to NIST Special Publication 800-18, Revision 1, Guide for Developing Security Plans for Federal
   Information Systems, technical controls provide automated protection for unauthorized access or misuse,
   facilitate detection of security violations, and support security requirements for applications and data.
   8
     According to NIST Special Publication 800-53, Revision 3, Recommended Security Controls for Federal
   Information Systems and Organizations, physical security controls are part of the physical and
   environmental protection control family.


www.oig.dhs.gov                                        32                                        	     OIG-12-120
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Richard Saunders, Director
   Philip Greene, Audit Manager
   Jason Dominguez, Management Analyst
   Jamie Horvath, IT Specialist
   Sandra Ho, IT Specialist
   Scott He, IT Specialist
   Michael Horton III, Management and Program Assistant
   Kelly Herberger, Communications Analyst
   Craig Adelman, Referencer




www.oig.dhs.gov                            33                   OIG-12-120
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Respective Under Secretary
   Director of Local Affairs, Office of Intergovernmental Affairs
   Chief Information Officer
   Chief Information Security Officer

   Transportation Security Administration

   TSA Administrator
   TSA Deputy Administrator
   TSA Chief Information Officer
   TSA Chief Information Security Officer
   TSA Audit Liaison
   FAMS Chief, IT Security
   FAMS Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                34                          OIG-12-120
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
